<html>
<title> - HAROLD CRAIG MANSON NOMINATION</title>
<body><pre>[Senate Hearing 107-243]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-243

                     HAROLD CRAIG MANSON NOMINATION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                 on the

 NOMINATION OF HAROLD CRAIG MANSON TO BE ASSISTANT SECRETARY FOR FISH, 
                WILDLIFE, AND PARKS, DEPARTMENT OF THE 
                                INTERIOR

                               __________

                            OCTOBER 3, 2001


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                _______

                  U.S. GOVERNMENT PRINTING OFFICE
77-181                     WASHINGTON : 2001


____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel

                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator from New Mexico................     1
Craig, Hon. Larry E., U.S. Senator from Idaho....................    11
Domenici, Hon. Pete V., U.S. Senator from New Mexico.............     1
Manson, Harold Craig, Nominee to be Assistant Secretary for Fish, 
  Wildlife, and Parks, Department of the Interior................     3
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     1
Thomas, Hon. Craig, U.S. Senator from Wyoming....................    10

                               APPENDIXES
                               Appendix I

Responses to additional questions................................    15

                              Appendix II

Additional material submitted for the record.....................    17

 
                     HAROLD CRAIG MANSON NOMINATION

                              ----------                              


                       WEDNESDAY, OCTOBER 3, 2001

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-366, Dirksen Senate Office Building, Hon. Jeff Bingaman, 
chairman, presiding.

           OPENING STATEMENT OF HON. JEFF BINGAMAN, 
                  U.S. SENATOR FROM NEW MEXICO

    The Chairman. The committee will come to order. This 
morning's hearing is on President Bush's nomination of Judge 
Harold Manson to be the Assistant Secretary for Fish, Wildlife, 
and Parks. Without objection, Judge Manson's written statement 
will be entered into the record.
    Let me defer to Senator Murkowski to make any opening 
statement he would like to make.
    [A prepared statement from Senator Domenici follows:]

       Prepared Statement of Hon. Pete V. Domenici, U.S. Senator 
                            From New Mexico

    Mr. Chairman, I appreciate your calling this hearing today and your 
continuing efforts to fill the ranks at the Interior Department. I am 
confident that Secretary Norton is also appreciative to have other 
aides confirmed.
    Mr. Chairman, we have an excellent nominee before the Committee 
today. He has exceptional records in both the private sector and in 
public service.
    For example, Harold Manson has served on the Superior Court of 
California since 1998. Before his judicial tenure, he served as general 
counsel to the California Department of Fish and Game, as well as a 
private attorney, a professor, and an Air Force Colonel. At the 
Department of Fish and Game, Judge Manson gained expertise in wildlife 
and endangered species issues and in water and environmental law.
    I look forward to working with Judge Manson on the many wildlife 
issues that affect my home state of New Mexico. For example, for the 
past few years, I have been working with the Department on the issue of 
the silvery minnow. We have made great progress in balancing the need 
to protect this endangered species with the need to protect New Mexican 
communities who depend on the Rio Grande water for their survival.
    I applaud President Bush's nomination of Judge Manson, and I look 
forward to working with him on this and many other issues important to 
New Mexico. 

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Good morning, Judge. We look forward to 
hearing your statement. You certainly are a qualified nominee 
and I hope that we can act on this nomination expeditiously. 
Your career, including General Counsel for California's 
Department of Fish and Game under a former Senator, Governor 
Wilson, given the difficult issues in California, and for that 
matter along the entire Pacific coast and lower Colorado, gives 
evidence to your ability to contribute to Secretary Norton.
    Hopefully, we will see nominations for the Assistant 
Secretary for Lands and Minerals and for the Department or the 
Bureau of Land Management shortly, to start to fill out the 
vacancies of the Department of the Interior. I also hope that 
we can move to the nomination of Jeffrey Jarrett shortly, as 
well as some anticipated nominations which I understand are 
coming from the Department of Energy.
    I would note that, in addition to your writings on the 
Endangered Species Act and California statutes, you have also 
written and lectured on space law and aliens. That is quite a 
spread. I do not know if that will serve you well in the 
Department, but it probably will not hurt. You can set a 
division of who are the space aliens and who are the folks from 
space.
    But in any event, I will not prolong that line very much 
further, other than to wish you well.
    The Chairman. Judge, the rules of the committee which apply 
to all nominees require that nominees be sworn in connection 
with their testimony. Would you please stand and raise your 
right hand.
    The Chairman. Do you solemnly swear that the testimony you 
are about to give to the Senate Committee on Energy and Natural 
Resources will be the truth, the whole truth, and nothing but 
the truth?
    Mr. Manson. I do.
    The Chairman. Please be seated.
    Before you begin your statement, I am to ask three 
questions that we address to each nominee before the committee. 
The first is: Will you be available to appear before this 
committee and other Congressional committees to represent 
departmental positions and to respond to issues of concern to 
the Congress?
    Mr. Manson. Yes, I will.
    The Chairman. Second question: Are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Mr. Manson. Senator, my investments and personal holdings 
and other interests have been reviewed by myself as well as the 
appropriate ethics counselors within the government and I have 
taken appropriate action the avoid any conflicts of interest. 
There are no conflicts of interest or appearances thereof to 
the best of my knowledge.
    The Chairman. All right. The third question: Are you 
involved or do you have any assets that are held in blind 
trust?
    Mr. Manson. No.
    The Chairman. At this point let me invite you, if you have 
anyone here you would like to introduce who accompanied you, 
we'd be glad to have that occur. Then we would recognize you 
for your opening statement. Go right ahead.
    Mr. Manson. Senator, my wife Penny wanted to be here today. 
She has some work-related commitments in Sacramento, so she's 
remaining there, although she understands that this hearing may 
be on the Internet and she's interested in following it through 
that method.
    The Chairman. Well, good. If she's on the Internet, we wish 
her well.
    Why don't you go ahead with any opening statement that you 
have at this point.

        TESTIMONY OF HAROLD CRAIG MANSON, NOMINEE TO BE 
 ASSISTANT SECRETARY FOR FISH, WILDLIFE, AND PARKS, DEPARTMENT 
                        OF THE INTERIOR

    Mr. Manson. All right. Mr. Chairman, Senator Murkowski and 
members of the committee: I am very deeply honored and humbled 
to be here as the President's nominee to be Assistant Secretary 
for Fish, Wildlife, and Parks, and I'm very grateful for the 
confidence that the President and Secretary Norton have 
invested in me. And I also would like to thank Secretary of 
Agriculture Ann Veneman for her support.
    I want to mention that I'm grateful that the committee has 
taken time during a period of national crisis to hold this 
hearing. Of particular interest to me and to the committee, I 
hope, is the fact that we lost a U.S. Fish and Wildlife Service 
employee, Richard Guadagno, in the crash of the jet in 
Pennsylvania. He was the manager of the Humboldt Bay National 
Wildlife Refuge in California. He was a native of New Jersey 
and highly regarded by everyone who knew him. So I would ask 
that your prayers be with his family, as I know they are with 
all the families affected.
    I was born in Missouri, grew up in New Mexico and 
California, have spent most of the last 47 years in the Western 
United States, living in Arizona, Colorado, South Dakota, and 
having visited for recreation purposes Wyoming and Oregon and 
Montana and other Western States. I'm a graduate of the U.S. 
Air Force Academy and received my law degree from the 
University of the Pacific McGeorge School of Law in Sacramento, 
and served for a number of years on active duty in the U.S. Air 
Force.
    After I left the Air Force, I practiced law in Sacramento, 
and following that experience, as Senator Murkowski mentioned, 
Governor Wilson appointed me to be the General Counsel of the 
California Department of Fish and Game. I served in that 
position for 5 years, until Governor Wilson appointed me to the 
bench. I've been a judge since 1998.
    I'm also a professor of law at McGeorge School of Law in 
Sacramento and I continue to serve in the Air National Guard 
with the rank of colonel.
    I want the committee to know that I have extreme enthusiasm 
for the position to which the President has nominated me. I 
think I bring my experience in natural resources issues, a 
judicial approach, and an ability to build consensus across 
diverse groups.
    I want to mention some things in my tenure in California 
which I think illustrate that approach. We conserved hundreds 
of thousands of acres of wildlife habitat in the coastal sage 
scrub habitat in southern California. That's a habitat where 
California's most intensive growth and development pressures 
exist, and the program that we established was a multi-species 
program. It had the support of landowners, environmental 
groups, State and local governments, as well as the U.S. Fish 
and Wildlife Service.
    In addition to that, we also conserved hundreds of 
thousands of acres in our State version of habitat conservation 
plans. The key and essential fact about that was that each of 
these were based upon sound science and had the support of 
landowners as well. It was a cooperative effort.
    Additionally, the fact of which I am most proud in my 
public service occurred in 1997, when Governor Wilson signed 
into law revisions to the California Endangered Species Act. 
I'm proud of that because the Governor had entrusted me with 
the administration's negotiating portfolio on that and we spent 
4 years building a consensus among landowners, local 
governments, agricultural interests, and environmental groups, 
and our legislation was passed on a bipartisan basis.
    It introduced the concepts of landowner incentives and 
requirements for effective species recovery programs. It also 
provided for voluntary, locally designed programs to conserve 
habitat while allowing agricultural activities to proceed 
without the counterproductive effects of a strict regulatory 
approach.
    I mention these California experiences to illustrate my 
commitment to work through natural resources issues on a 
consensus basis. I'm completely committed to what Secretary 
Norton has described as the four C's: communication, 
consultation, and cooperation, all in the service of 
conservation.
    If I'm confirmed, I will also apply my judicial experience 
to issues involving natural resources, and that means two 
things: first, every interested party will get a fair hearing. 
That means environmental interest groups, landowners, farmers, 
ranchers, historic preservation interests, State and local 
governments, and resources and recreational user groups.
    Second, any decisions that I make or recommendations that I 
give to the Secretary will be based upon the weight of the 
evidence, and I agree with the President's view and Secretary 
Norton's view that these public policies must be informed by 
sound science.
    This committee voted last summer to confirm the appointment 
of Frank Mainella as Director of the National Park Service. 
I've had the chance to spend some time with Director Mainella 
and she's doing an outstanding job, and I look very much 
forward to working with her if I'm confirmed.
    The President has also nominated Steve Williams of Kansas 
to be the Director of the U.S. Fish and Wildlife Service. Dr. 
Williams is the Secretary of Wildlife and Parks in the State of 
Kansas. I've spent some time with him. He's an outstanding 
professional in the field of natural resources management who 
will be an asset to the Department of the Interior if he is 
confirmed.
    Mr. Chairman, I love this great country and the physical 
resources that we've been blessed with and I will do my best if 
I am confirmed to see that these resources remain a perpetual 
source of enjoyment for the American people, and I'd be glad to 
answer any questions that the committee may have.
    [The prepared statement of Judge Manson follows:]

  Prepared Statement of Harold Craig Manson, Nominee to Be Assistant 
  Secretary for Fish, Wildlife, and Parks, Department of the Interior

    Mr. Chairman, Senator Murkowski, Members of the Committee, I am 
honored and humbled to appear before you as the President's nominee to 
be Assistant Secretary of the Interior for Fish, Wildlife and Parks, 
seeking your confirmation vote. I am deeply grateful for the confidence 
in me shown by the President and Secretary Norton. I also thank 
Secretary of Agriculture Ann Veneman for her support.
    I appreciate that the committee has taken time to hold this hearing 
in a time of great national crisis. As you know, the Department of the 
Interior's personnel, including the U.S. Park Police and the law 
enforcement elements of the U.S. Fish and Wildlife Service and others 
have played vital roles in responding to the current crisis. Most 
regrettably, a U.S. Fish and Wildlife Service employee, Richard 
Guadagno, lost his life in the crash of the jet in Pennsylvania. Mr. 
Guadagno was the refuge manager of the Humboldt Bay National Wildlife 
Refuge in my home state of California. He was highly regarded by all 
who knew him and he embodied the very best attributes of the talented 
people in both the Fish and Wildlife Service and the National Park 
Service. I ask that your prayers be with his family as they are with 
all the families affected by this great tragedy.
    As an American, I am a descendant of Africans, Europeans, and 
Native Americans. Born in Missouri, I grew up principally in New Mexico 
and California, where I now reside. I've spent 42 of the last 47 years 
living in the western United States, including, in addition to New 
Mexico and California, Arizona, Colorado, and South Dakota. I've had 
the great pleasure of visiting other western states for recreation, 
including Oregon, Wyoming, and Montana.
    I received my undergraduate education at the United States Air 
Force Academy. Following my graduation from the Academy, I served two 
years as a Minuteman missile launch officer. The Air Force then sent me 
to law school and I received my law degree at the University of the 
Pacific, McGeorge School of Law in Sacramento. I served in various Air 
Force judge advocate assignments in the U.S. and overseas, including 
four years on the Air Force Academy faculty, in the Department of Law. 
During my faculty tour, I was assigned, with several other faculty 
members, to report to the Secretary of the Air Force concerning the 
state of Air Force compliance with environmental laws on its overseas 
bases.
    After leaving active duty in 1989, I practiced law with a major 
Sacramento law firm for three years. I was then appointed by California 
Governor Pete Wilson to the newly created position of General Counsel 
of the California Department of Fish and Game. I held that position for 
five years, after which the Governor appointed me to be a judge. I have 
served on the Superior Court in Sacramento since 1998. I've also been 
on the faculty of McGeorge School of Law since 1992. I continue my 
military service in the Air National Guard, with the current rank of 
colonel.
    Apart from unmitigated enthusiasm for I what think is the best job 
in Washington, I offer my experience in natural resources law and 
policy, an ability to build consensus across diverse interest groups, 
and a judicial approach to decision-making.
    During my tenure with California's Department of Fish and Game, we 
conserved hundreds of thousands of acres of wildlife habitat in an 
innovative multiple species planning program in Southern California's 
coastal sage scrub habitat. That habitat, home to hundreds of 
potentially at-risk plant and animal species, stretches across the five 
counties in which California's most intensive growth and development 
pressures exist. Our natural communities conservation program had 
bipartisan support as well as the support of landowners, resource 
users, local governments and environmental interest groups. The U.S. 
Fish and Wildlife Service also was a partner.
    In addition to our large scale multiple species plans, during my 
tenure at California Fish and Game, we pioneered habitat conservation 
plans, HCPs, using our state Endangered Species Act. At one point 
during the 1990's, we had more HCPs in the state of California under 
state law than existed in the entire rest of the country under federal 
law. Each of our state HCPs was based on the scientific judgments of 
our biologists and involved the cooperation of landowners. Again, 
hundreds of thousands of acres of habitat were conserved while allowing 
economic activities to proceed.
    In all of my public service, I have had no prouder moment than in 
1997 when Governor Pete Wilson signed into law amendments to the 
California Endangered Species Act. I had been entrusted with the Wilson 
administration's negotiating portfolio on that legislation. We worked 
diligently for four years to build a consensus among environmental 
groups, landowners, local governments, and agricultural interests. We 
listened to everybody. Eventually, our legislation, conceived by a 
Republican administration, was introduced by three Democratic state 
legislators and won bipartisan passage. The legislation placed into the 
California Endangered Species Act the concepts of landowner incentives 
and requirements for effective species recovery programs. The 
legislation also provided for voluntary, locally designed programs to 
conserve habitat while allowing agricultural activities to proceed 
without the counterproductive effects of a strict regulatory approach.
    I mention my experiences in California to illustrate my commitment 
to work through environmental and natural resource public policy issues 
on a consensus basis whenever possible. In that regard, I am completely 
committed to what Secretary Norton describes as the ``4 C's'': 
communication, consultation, and cooperation, all in the service of 
conservation. I strongly support Secretary Norton's philosophy that the 
federal government must be a partner to state and local governments, 
individuals and nongovernmental organizations affected by or interested 
in natural resource policy.
    If I am confirmed, I will also apply my judicial experience to the 
issues involving our national parks and natural resources. First, every 
interested party will get a fair hearing: environmental interest 
groups, landowners, historic preservation interests, state and local 
government, and recreational user groups. Second, any decisions I make 
or recommendations I give to the Secretary will be based on the weight 
of the evidence. I agree with the view expressed by both the President 
and Secretary Norton that our natural resources public policies must be 
informed by sound science.
    There are a number of important issues facing our National Park 
System. One of the significant issues is the backlog of deferred 
maintenance projects. I support the President's initiative to eliminate 
this backlog over the next five years.
    This committee last summer voted to confirm the appointment of Fran 
Mainella as Director of the National Park Service. I have had the 
opportunity to spend some time with Director Mainella and she is doing 
an outstanding job. Working with her is something I most look forward 
to, if I am confirmed. The President has also nominated Steve Williams 
to be Director of the U.S. Fish and Wildlife Service. Dr. Williams is 
the director of wildlife and parks in the state of Kansas. I've also 
spent time with him. He is an outstanding professional in the field of 
natural resources management who will be an asset to the Department if 
he is confirmed.
    I also look forward to, if I am confirmed, the opportunity to work 
with the talented and dedicated field employees of the National Park 
Service and the U.S. Fish and Wildlife Service. I have great respect 
for these professionals who ensure the preservation of America's 
greatest treasures every day.
    Mr. Chairman, I love our great country and the physical resources 
with which we have been blessed. If confirmed, I will do my best to see 
that our resources remain a perpetual source of enjoyment for the 
American people.
    I'll be pleased to answer any questions.

    The Chairman. Thank you very much for that statement. Let 
me ask a few questions, and I'm sure the other members here 
will also have questions.
    The National Park Service Organic Act of 1916 provides that 
the purpose of the national parks is ``to conserve park 
resources while providing for the enjoyment of the same in such 
manner and by such means as will leave them unimpaired for the 
enjoyment of future generations.'' One of the major management 
challenges of the Park Service has been to properly balance 
those two legislative mandates, the mandate of conservation and 
the mandate of recreation.
    The current Park Service management policy interprets the 
Organic Act to mean that when there's a conflict between 
conserving park resources and values and providing for the 
enjoyment of those resources, conservation is to predominate. I 
wanted to ask if you agree with that policy that conservation 
of park resources is the primary mission of the National Park 
Service?
    Mr. Manson. Well, those two mandates on their face seem to 
be in conflict, but to me it's not necessary to view them as 
inextricably or intractably in conflict. We face this type of 
situation with our own personal assets. We want to conserve our 
personal assets, our homes, our finances, to pass on to our 
children and future generations, but at the same time we have 
to use and enjoy them as well.
    It seems to me that they are of equal importance, looking 
at the statute and interpreting statutorily. But in particular 
cases one may yield to the other, depending upon the 
circumstances. And I would look at every circumstance very 
carefully to understand that we have to achieve both of those 
purposes.
    The Chairman. Well, let me bring it down to a specific. The 
Park Service has recently implemented proposals the 
significantly reduce or ban snowmobile use in many national 
parks, in particular Denali National Park and Preserve, 
Yellowstone, Grand Teton National Park. Do you support those 
proposals?
    Mr. Manson. Well, you may know that those proposals, 
particularly at Yellowstone, have been the subject of 
litigation. The litigation was recently settled at Yellowstone 
and the Service is preparing, the Park Service is preparing, a 
new environmental impact statement on that. As I said in my 
opening statement, I would look carefully at the weight of the 
scientific evidence before I would make a decision in any 
particular case.
    If the environmental impact statement shows significant 
impacts that can't be mitigated, then I certainly would support 
measures to eliminate those impacts by regulating snowmobile 
use in those parks.
    The Chairman. Just going back to your previous answer 
there, we are in agreement, I hope, that the Organic Act makes 
conservation of the resource the predominant mission of the 
park, and only to the extent that can be accomplished 
consistent with use and enjoyment is the use and enjoyment 
permitted. Is that your understanding, too?
    Mr. Manson. Well, it comes first in the statute and as a 
judge I would say that it takes precedence.
    The Chairman. I think it not only comes first, it says ``to 
provide for the enjoyment of the same in such manner and by 
such means as will leave them unimpaired,'' ``them'' being the 
``natural and historic objects of the parks,'' ``will leave 
them unimpaired for the enjoyment of future generations.''
    Mr. Manson. Right. I agree with that mandate.
    The Chairman. Okay. Let me ask about the Endangered Species 
Act. You indicated your extensive involvement with the 
California Endangered Species Act. If confirmed as the 
Assistant Secretary, you'll be very involved, of course, with 
the Federal Endangered Species Act. Do you have views as to 
that act, any changes you think are needed in that act? Do you 
support it the way it now exists? What is your thought on the 
enforcement, your future actions in trying to enforce that act?
    Mr. Manson. Well, I did have an experience with it in my 
previous job in California, because we worked closely with the 
Fish and Wildlife Service on issues of mutual concern, and of 
course the State had an obligation to ensure that its 
activities did not violate the Federal Endangered Species Act.
    I think there are a couple of things that could be done 
with the Federal Endangered Species Act. To the extent that 
there has been a lack of focus either statutorily or 
regulatorily or on the ground in effective species recovery 
programs, I think that's something that requires attention. I 
think that the ultimate purpose of the act should be to recover 
species to the point where they can be delisted, and I would 
hope to have some ability to ensure that that happens, either 
as a practical policy or in terms if regulatory action if 
necessary. We've got to recover species, not just leave them on 
the critical care list perpetually.
    The other thing that I think--another thing that I think 
needs to be focused on is the ability of States to be partners 
with the Federal Government in carrying out the mandates of the 
Federal Endangered Species Act. Now, there are a number of ways 
that can be done. Of course, section 6 of the act provides for 
cooperative agreements between the Federal Government and the 
States, and the Fish and Wildlife Service has over the years 
provided grants to the States for various purposes under 
section 6.
    I would be interested in looking at section 6 and the 
regulations under section 6 to see what more we could do to 
ensure that the States are partners in recovery and enforcement 
under the act.
    The Chairman. All right. Let me defer to Senator Murkowski 
for his questions.
    Senator Murkowski. Thank you very much.
    Judge, as you undertake your new responsibility you're 
going to find that you're going to be exposed to a myriad of 
issues relative to not only the U.S. Fish and Wildlife Service, 
but the National Park Service as well. One that comes to mind 
is a report that was due from the Department of the Interior in 
August of this year under Public Law 106-486, which covers the 
cost of high altitude rescues on Denali National Park, Mount 
McKinley.
    The issue there is that the Park Service provides a 
helicopter, a high endurance helicopter that costs about 
$750,000 a year. The fee for climbing Denali is $150. It's not 
my intent to discourage climbers by any means, but the question 
of whether this is a reasonable cost to be undertaken by the 
taxpayers of the country or there should be a more reasonable 
fee or an insurance program of some kind, which some countries 
mandate, to offset the cost of rescue.
    I would suggest that, during some leisure time when you're 
looking at some of your hobbies, you consider looking into this 
matter, I think it puts an unfair burden on the taxpayer. To 
get geared up to do that kind of a climb is very expensive. 
Obviously, it isn't everybody off the street that can do it and 
the preparation costs a good deal. The fee is totally 
unreasonable in our opinion and it's a question of costs to the 
Department of the Interior.
    There is also the danger to those who are involved in the 
rescue, and then behind that is a military capability which is 
done as part of the training. That was the rescue prior to the 
Park Service committing this helicopter capability.
    Another issue is that you're going to be managing 54 
million acres of national parks in my State of Alaska. That's 
more than all the rest of the National Park Service land 
stewardship put together. As a consequence, many of the 
mandates associated with activities in the park consist of the 
old parks, the new parks, and the park preserves. These are 
distinctions that Alaskans have had to live with relative to 
the use of those parks. It's important that policymakers 
understand the differences and the management scenarios.
    There is an issue outstanding relative to Park Service 
action that was taken some time ago in the elimination of 
commercial and sports fishing in Glacier Bay. That's a point of 
agitation. The excuse the Park Service used was they didn't 
want any commercial activity. Yet, the cruise ship industry is 
a commercial activity. There was no justification based on any 
scientific evaluation of the inadequacy of the State of Alaska 
Fish and Game in managing the fisheries resources in there. So 
it wasn't done for conservation purposes.
    It seemed to have been done as a policy of the last 
administration, who objected to the modest amount of commercial 
activity associated with commercial fisheries from the 
residents and the Native people in the nearby village of Hoonah 
and so forth. We feel this is an injustice. The State is 
pursuing this, and we would certainly request that you 
familiarize yourself with the issue.
    The Park Service has even forbidden the gathering of 
seagull eggs, which is a traditional harvest of the Native 
people. It's pretty hard to understand the justification for 
that kind of mandatory action based on no explanation of need.
    I would hope that we would have an opportunity to have you 
visit Alaska in the near future. The number one tourist 
destination in our State is Denali National Park, the number 
two is Glacier Bay. Glacier Bay is open about 90 days a year.
    We suggest that there should be perhaps two cruise ships a 
day. The Park Service is very much opposed to that. There's 
probably not a better way to see a national park than off the 
deck of a cruise ship from the standpoint of the footprint. The 
idea of roads into that area are not realistic. Flying into the 
area is often difficult because of adverse weather. There is no 
airfield, with the exception of Gustavus, outside the park.
    So my point is we feel that there are unrealistic policies 
mandated by the Park Service, pretty much at the whims of the 
Park Service and not based on any science. They'll tell you the 
reason is whales and so forth, but most of the whales are 
outside the park. That's where you go to watch the whales, at 
the north end of Chichigof Island. Alaskans know this, but 
there seems to be a mandate among some in the Park Service, not 
based on any logic, that somehow visitors should be discouraged 
to come into that park in the most practical way, which is the 
cruise ship.
    There are 12 months of the year and there are only 3 months 
when the cruise ships come into that area. To suggest that 2 a 
day is unreasonable is not based on any science.
    The last issue is relative to Denali National Park. The 
Park Service supports one entry into the park, the existing 
entry. What's happened out on the highway, unfortunately, is 
that it's developed into almost a strip mall. It's not very 
pretty, and the congestion and the disappointment of visitors 
who come up and can't be accommodated into the park, mandates 
that this six million acre park needs another entry, an entry 
from the north end.
    We've proposed that. There has been a preliminary study 
done some years ago. There's going to be another review. But 
clearly, I think that the Park Service has an obligation to 
address relief and access.
    I would also point out the issue of snow machines in the 
park and the park preserves are an issue that you're going to 
find crossing your desk. I hope that you will recognize the 
guarantees made for access relative to snow machiners who enjoy 
that portion of the park that is suitable for snow machining 
and familiarize yourself with some of the other points that I 
have made. These parks are among some of the crown jewels of 
the Park Service and they need attention.
    Mr. Manson. Senator, I have heard about some of those 
issues. I don't have an intimate familiarity with them. I've 
not yet seen the report on the rescue, but I can assure you 
that if I'm confirmed that I will become intimately familiar 
with each of the issues that you've raised.
    Senator Murkowski. Well, Mr. O'Toole behind me perhaps can 
help you, if he's still here. Thank you.
    The Chairman. Senator Thomas.

         STATEMENT OF HON. CRAIG THOMAS, U.S. SENATOR 
                          FROM WYOMING

    Senator Thomas. Thank you, Mr. Chairman.
    Welcome, Judge. Glad to have you here.
    Mr. Manson. Thank you very much.
    Senator Thomas. I look forward to you moving into this 
position.
    One of the things that I hope will be fairly high on the 
agenda: We passed a bill in 1998 with respect to parks and one 
of the things rather specifically was the concession management 
aspect of it, which of course is vital to the enjoyment of 
visitors.
    To this time, the direction set forth in that law has not 
been implemented by the Park Service. Indeed, all they have 
done is just extend the contracts and so on. We want to get 
those contracts being made more in a professional way. Do you 
have any reaction to that?
    Mr. Manson. Well, I have been informed that the Park 
Service is working on all of the contracts presently. I haven't 
had any involvement in that as of yet. It's an issue that is 
important to me from a personal point of view because I believe 
that there ought to be public-private partnerships and the 
ability of the private sector to contribute to the experience 
in the national parks under the law.
    So that's something that I will take a close look at.
    Senator Thomas. I just think there needs to be--and I 
talked to the Parks Director just yesterday, as a matter of 
fact, and hopefully there'll be some movement there. We need to 
get a little bit of private sector expertise in there to help 
do something that basically is a private sector thing and so 
on.
    Also, there are some discussions about fees, the way fees 
are charged, the demonstration fee program specifically, and 
then the various other fees that people talk about. I happen to 
favor the demonstration fee program, but think that there ought 
to be a limit on the individual fees that are charged. What's 
your reaction to that?
    Mr. Manson. Well, my experience thus far with the parks, my 
personal experience outside of this particular issue, is that 
the fees that I have been familiar with have been relatively 
reasonable. I think there is a point where it starts to detract 
from the ability of people to have access to the parks. It's 
something that requires constant attention.
    Senator Thomas. I think 4 or 5 years ago the Fish and 
Wildlife Service indicated that the recovery for grizzly bears 
had been obtained in terms of numbers. We'd been promised last 
year from the Director of the Fish and Wildlife Service that 
would be under way. It is not under way. What we have, I think 
as you suggested, is more emphasis put on listing than we have 
on recovery.
    It would seem to me that, specifically in the case of 
wolves and grizzly bears, there ought to be some real efforts 
made there to acknowledge the recovery.
    Mr. Manson. I agree that we need to look carefully at 
grizzly recovery and wolf recovery and ultimately with the goal 
of potentially de-listing. This is an area where the States 
definitely have a role to play. I know that Montana and Wyoming 
have been active in this particular area, and if I'm confirmed 
I would hope that we can work with those States to get to a 
position where ultimately both grizzlies and wolves can be de-
listed.
    Senator Thomas. We've been pushing to get into the 
Endangered Species a provision that would require that when a 
listing is made there also has to be simultaneously a recovery 
plan.
    Mr. Manson. That was, by the way, an element of our 
legislative proposals in California under the State Endangered 
Species Act, that there be a strategy in place for recovery. 
That's certainly something that I have found to be worthwhile 
in the past.
    Senator Thomas. Just as an observation, on the upper 
Colorado a couple of fish that have been listed for some time, 
I think from 1989 until now there has been an expenditure of 
$80 million on a couple of fish. Some of them are almost trash 
fish. It looks like there ought to be some kind of measurement 
in terms of when you do this how much you spend on these 
issues.
    I happen to be one who thinks--some think any species are 
all equal. I happen to think that is not the case. It would be 
interesting if you'd take a look at that upper Colorado fish 
opportunity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Craig.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Thank you, Mr. Chairman.
    We are all looking forward to working with you in your new 
capacity, and the experience you bring I think is going to be 
extremely valuable.
    Idaho, unfortunately, has a very small unit of the Park 
Service. We have a national monument and, although it has been 
expanded greatly in the last year and a half by the former 
President and out of that expansion has created some 
interesting conflicts of management between the BLM and the 
Park Service, I think we can probably work those out, and we'll 
look forward the working with you to resolve some of them.
    But Idaho is in a state of crisis, and it is in a state of 
crisis as a product of the Endangered Species Act. A former 
colleague of mine who is now Governor of our State, who served 
as chairman of a subcommittee here for a good many years trying 
to reform the Endangered Species Act, found out that the past 
administration was really very unwilling to do that, and I 
think that my colleague from Wyoming has said it well: They are 
more intent on listing and using it as a tool to stop human 
activity on our public lands than to develop cooperative 
relationships that would allow both a recovery of a species and 
then the human species the continue to prosper and flourish.
    States like California, Idaho, Wyoming, Alaska, New Mexico 
that are dominantly public lands States, find some very real 
conflicts. That former colleague, the current Governor of 
Idaho, Dirk Kempthorne, has set up an endangered species office 
within the State, not unlike I think the experience you've had 
in California, to try to resolve some of these conflicts.
    One that is now raging in our State is the wolf conflict. 
The past administration and the former Secretary of the 
Interior, at the direct objection of the State and its citizens 
and the congressional delegation, planted wolves in Idaho. Of 
course, in that environment there is no predator to control the 
predator, and that wolf is populating at a very rapid rate.
    It is now taking domestic livestock in ever-increasing 
numbers, and it appears within its range and its pack areas to 
be taking an unprecedented amount of wildlife. Our elk herds no 
longer have calves in that area, our deer herds no longer have 
fawns.
    It is really an issue that cries out for de-listing. I 
believe the test the U.S. Fish and Wildlife Service has 
established there is a super-test, if you will: a certain 
number of packs within the State of Wyoming, Montana, and Idaho 
within that range, that really I think goes beyond that. At 
that point they say we could de-list, the State could come in 
and participate in the management, and the State would like to 
do that.
    The great tragedy there, and I've watched it in the eyes of 
the human species that lives there, is that there was great 
anger when those wolves were first placed there. Then out of 
that grew frustration as they began to see the take of the 
wildlife. Now wolves are very visible. On the outskirts of 
communities, they're killing the domestic dogs, and people now 
feel threatened and therefore grow fearful.
    Mothers no longer allow their kids to walk a mile from the 
ranch house out to catch the local school bus. They drive them 
out there, and on the rack of the pickup is the 30.06 with a 
scope on it. They're going to protect their kids against the 
wolves.
    That should not be the Federal Government at work, but it 
is, and they are ignoring a local population that grows 
increasingly angry. The tragedy of that, as you can well, I 
would guess, expect, is that when that happens the very species 
we allowed to be placed there is now at risk at an ever-higher 
number, and it will be at risk in a silent, quiet way as the 
citizens of that area feel they have to defend themselves and 
their property against something that the Federal Government 
will not control, or at least argues a kind of control that 
doesn't seem to be compatible. That's one area of the State.
    The other area of the State that I think you would find 
uniquely interesting is--the area I just spoke of is the south-
central area of the State. The other area is right up against 
the Canadian border, a county that was historically a logging, 
mining county and an agricultural county, still remains a 
beautiful county with abundant forests. It's in a high moisture 
area, nearly a rain forest type environment, right up against 
the Canadian border.
    There we have--and my staff and I were just counting, and I 
think we have one, two, three, four, five, six or seven species 
listed. We have bull trout, we have sturgeon in the Kootenai 
River, we have a burbot, which is a new fish just listed as at 
risk or threatened, we have bears, wolves, lynx, and caribou.
    All of those management areas overlap each other and are in 
conflict with each other, and if you step out of one into 
another there's a whole new prescription of what you can or 
cannot do, and the end result is that county's just literally 
been economically shut down. It is now at risk, its communities 
are faltering, industries that should still remain robust 
there. And one of those ought to be the forest products 
industry. Up in that country they grow trees, unlike the inner 
Great Basin area of the West that is a good deal dryer, and 
they farm well there. It's a unique kind of microclimate.
    Yet, that is almost all stopped, and that cries out for a 
solution. Now, if you were to poll the people of Idaho they'd 
probably not want to get rid of the Endangered Species Act, but 
they grow increasingly frustrated and angry when they see the 
Federal Government using it as a tool to shut them down and to 
shut the economic activity of a dominant public lands State 
down. Clearly, in the last 8 years that has been the message 
communicated, an unwillingness to put a management plan 
together, an unwillingness to de-list, as my colleague from 
Wyoming said with grizzly bear, which spills out of Yellowstone 
and into the north, the northeast toe of the Idaho boot.
    Those are just a few. Then of course we have the Snake and 
the Columbia River listed species of salmon, and you had those 
in California in the Sacramento Delta country and all of that 
issue.
    I have no questions for you. I only offer you that as some 
of the challenges. I think your early statement that you could 
see cooperating relationships develop with States--we should 
not use the Endangered Species Act as a tool to shut down human 
activity or to deny people the right to live in a State that 
they have chosen as their lifestyle. That's exactly what's 
happening in Idaho at this moment, and it shouldn't be allowed 
to happen.
    At the same time, some of our colleagues who are east of 
the Mississippi in my opinion have a poor understanding of how 
the tool of the Endangered Species Act gets used, and of course 
therefore the public pressure for them is to preserve and not 
to balance or cooperate or do what I think you've suggested 
ought to be done in some of these areas, bring the States into 
some of these management plans so that we can develop 
cooperation.
    Well, enough said. We'll look forward to getting you on the 
job so you can begin to work with us. I would hope that we 
could make some slight adjustments that allow some reality to 
the Endangered Species Act and not allow it to be continually 
used by some of our agencies as simply a tool to shut down 
human activity. I think that's the wrong approach.
    Judge, thank you.
    Mr. Manson. Thank you, Senator. I have been on record 
supporting cooperation with the States. That'll be very 
important if I'm confirmed.
    I must say, quite frankly with some embarrassment, that 
Idaho is the only State west of the Mississippi that I have not 
ever visited, and it sounds like you have an abundance of 
issues and an abundance of natural heritage there, and I look 
forward if I am confirmed to making an early trip to Idaho.
    Senator Craig. Well, that one mistake you've made in your 
life we will want to eliminate, and do it very quickly, Judge. 
We'd love to have you come to Idaho and to visit with our State 
government and our Governor and look at some of these issues 
that we think cry out for cooperation. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you.
    Judge Manson, thank you for being here. We will advise 
members that they will have until 5 o'clock this evening to 
file with the committee staff any additional questions they 
would like the nominee to respond to for the record, and the 
committee will stand in adjournment.
    [Whereupon, at 10:18 a.m., the hearing was adjourned.]
                               APPENDIXES

                              ----------                              


                               Appendix I

                   Responses to Additional Questions

                              ----------                              

Hon. Jeff Bingaman,
Chairman, Senate Energy and Natural Resources, U.S. Senate, Washington, 
        DC.
    Dear Mr. Chairman: Enclosed you will find my response to the 
written question I received following my nomination hearing before the 
Senate Energy and Natural Resources Committee on Wednesday, October 3, 
2001.
    If I can be of further assistance, please let me know.
            Sincerely,
                                              Craig Manson,
     Assistant Secretary for Fish and Wildlife and Parks Designate.

[Enclosures]

               Response to Question From Senator Cantwell

    Question. In testimony for the Senate Environment and Public Works 
Committee and Senate Energy and Natural Resources Committee, you 
highlighted your work in California and the use of habitat conservation 
plans (HCPs) to protect endangered species and their habitat. A number 
of studies have been done as to the effectiveness of HCPs and the 
results have been mixed. Numerous of prominent biologists, including 
Stanford University conservation biologist Dennis Murphy, have argued 
that some HCPs may be doing more harm then good, and have advocated for 
a moratorium on HCPs.
    One HCP in my home state of Washington, located on 85,000 acres of 
Crown Pacific Ltd. timber lands in Skagit and Whatcom counties, 
proposed to exempt from the Endangered Species Act ``take'' provisions 
of 28 species of fish and wildlife including coho and sockeye salmon, 
bald and golden eagles, Townsend's big-earred bat, and the California 
wolverine. However, an analysis of the Pacific Crest Biodiversity 
Project, Seattle Audubon Society and Gifford Pinchot Task Force found 
that in this case the HCP did not apply the best available scientific 
information. For example, the HCP's discussion of fish habitat does not 
account for chemical pollution, detrimental changes to stream 
temperature, invertebrate food sources, or the timing and intensity of 
water flows that are caused by upslope logging and other practices.
    Mr. Manson, as Assistant Secretary for Fish, Wildlife and Parks, 
how would you address these concerns with HCPs and how will you ensure 
that the federal government encourages priceless endangered species 
populations to actually recover rather than just preventing them from 
declining further?
    Answer. Based upon my familiarity with Habitat Conservation 
Planning activities in California, I have found that the HCP process is 
particularly valuable because it enables States, local jurisdictions 
and private landowners to work cooperatively toward species 
conservation. If confirmed, I will work to ensure the best available 
scientific and commercial information is used in both the development 
and approval process for HCPs, and that the HCP process is conducted in 
an open and collaborative manner.
    I am not familiar with the specific circumstances regarding the 
Crown Pacific HCP in Washington. If confirmed, I will look into that 
situation and report back to you.
    As I testified in my appearance before the Committee, I firmly 
believe that the primary goal of the endangered species program must be 
the recovery of species. While I am not yet familiar enough with the 
Fish and Wildlife Service's actual management of the program to provide 
specific steps I would initiate if confirmed, I assure you this will be 
my clear objective.
                              Appendix II

              Additional Material Submitted for the Record

                              ----------                              

                     Northern California Water Association,
                                   Sacramento, CA, August 20, 2001.

Hon. Jeff Bingaman,
Chairman, Energy and Natural Resources Committee, U.S. Senate, Hart 
        Senate Office Building, Washington, DC.
    Dear Chairman Bingaman: I am writing today to convey the Northern 
California Water Association's (NCWA) support for the appointment of 
Craig Manson to the position of Assistant Secretary of the Interior for 
Fish and Wildlife.
    NCWA represents 68 water suppliers and individual farmers who 
collectively irrigate over 850,000 acres of fertile Northern California 
farmland. Several of our members also deliver water to state and 
federal wildlife refuges and a large portion of this land serves as 
important seasonal wetlands for migrating waterfowl, shorebirds and 
other wildlife.
    Mr. Manson has an extensive background in resource management, 
including service as General Counsel for the California Department of 
Fish and Game. More significantly, I have personally known Mr. Manson 
for more than a decade. As a result, I wholeheartedly attest to his 
personal judgment and integrity, which will serve the Administration 
well. You can be sure that Mr. Manson's background and experience will 
be an asset to the Department of the Interior and to the people of the 
United States.
    Once again, I would like to express our support for Mr. Manson's 
appointment.
            Sincerely,
                                              David J. Guy,
                                                Executive Director.
                                 ______
                                 
                                   State Water Contractors,
                                   Sacramento, CA, August 23, 2001.

Hon. Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, U.S. Senate, Dirksen 
        Senate Office Building, Washington, DC.

Subject: Support for confirmation of Mr. Harold Craig Manson as 
Assistant Secretary of the Interior for Fish and Wildlife and Parks.

    Dear Senator Bingaman: The State Water Contractors \1\ strongly 
support the nomination of Mr. Harold Craig Manson as Assistant 
Secretary of the Interior for Fish and Wildlife and Parks. The State 
Water Contractors is an organization that represents 27 public agencies 
throughout California that have long-term contracts for water supply 
from the State Water Project. The State Water Project provides water 
supplies for 22 million Californians and irrigation supplies to one 
million acres of prime farmland.
---------------------------------------------------------------------------
    \1\ Alameda County Flood Control & Water Conservation District, 
Zone 7; Alameda County Water District; Antelope Valley-East Kern Water 
Agency; Casitas Municipal Water District on behalf of the Ventura 
County Flood Control District; Castaic Lake Water Agency; Central Coast 
Water Authority on behalf of the Santa Barbara County FC&WCD; City of 
Yuba City; Coachella Valley Water District; County of Kings; Crestline-
Lake Arrowhead Water Agency; Desert Water Agency; Dudley Ridge Water 
District; Empire-West Side Irrigation District; Kern County Water 
Agency; Littlerock Creek Irrigation District; The Metropolitan Water 
District of Southern California (``Metropolitan''); Mojave Water 
Agency; Napa County FC&WCD; Oak Flat Water District; Palmdale Water 
District; San Bernardino Valley Municipal Water District; San Gabriel 
Valley MWD; San Gorgonio Pass Water Agency; San Luis Obispo Co. FC&WCD; 
Santa Clara Valley Water District; Solano County Water Agency; and 
Tulare Lake Basin Water Storage District.
---------------------------------------------------------------------------
    Prior to his distinguished public service as Judge with the 
Superior Court of California, County of Sacramento, Mr. Manson spent 
seven years as General Counsel for the California Department of Fish 
and Game. Mr. Manson supervised the California Department of Fish and 
Game's team of 14 attorneys and support staff, oversaw environmental 
and other litigation in state and federal courts, drafted legislative 
proposals on natural resource issues, represented the California 
Department of Fish and Game before other state and federal 
administrative agencies and provided policy and legal advice to the 
Governor and state agencies on natural resource issues.
    We believe Mr. Manson will focus on achieving objectives in a 
manner that reflects sensitivity to the environment and to the public 
we serve. His years of experience in the field of environmental law and 
his expertise in environmental law and regulatory issues, solution-
oriented approach, leadership skills and dedication to public service 
make him a fine addition to the Department of the Interior.
    I urge you to confirm his nomination.
            Sincerely,
                                            John C. Coburn,
                                                   General Manager.
                                 ______
                                 
                                   Sacramento, CA, August 29, 2001.

Hon. James Jeffords,
Chair, Committee on Environment and Public Works, U.S. Senate, Dirksen 
        Building, Washington, DC.
Hon. Jeff Bingaman,
Chair, Committee on Energy and Natural Resources, U.S. Senate, Hart 
        Building, Washington, DC.

Re: Support for Confirmation of H. Craig Manson as Assistant Secretary 
of the Interior

    Dear Chairmen Bingaman and Jeffords: We urge you to support the 
nomination of Superior Court Judge, H. Craig Manson as Assistant 
Secretary of the Department of the Interior for Fish, Wildlife and 
Parks.
    During his tenure as the first General Counsel for the California 
Department of Fish and Game from 1993 to 1998, Judge Manson 
consistently demonstrated an in-depth knowledge and understanding of 
the diverse and often complicated natural resource issues affecting 
California. In particular, his legal and policy expertise regarding 
federal and state Endangered Species Acts, wetlands, water law, the 
National Environmental Policy Act and California Environmental Quality 
Act, and other natural resource issues, helped ensure the long-term 
protection and enhancement of those important resources in California.
    Judge Manson approaches all issues with a professional judicial 
demeanor, recommending decisions only upon the best scientific 
evidence, with absolute fairness and impartiality. His well-known 
reputation for thoughtfully listening to and giving consideration to 
constituencies on all sides of the issues has earned him great 
bipartisan respect over the years from a host of diverse interests.
    With his deep understanding of so many of the highly-complex and 
diverse resource issues facing California and the Nation, and with no 
ties to any special interests, Judge Manson should be expected to make 
well-reasoned, prudent decisions as Assistant Secretary which will 
benefit the long-term protection, preservation and maintenance of our 
country's wildlife, parks and natural resources.
    It is particularly important to have a Californian in a key 
Interior position, for at least two reasons. First, there is no greater 
proving ground in which to be exposed to the greatest diversity of 
natural resource issues than in the state of California with its 
unparalleled ecological diversity and substantial human population and 
resource development needs. Secondly, California, in many ways, is an 
excellent microcosm of many National issues that are to surface in the 
future.
    Judge Manson's proven experience, remarkable depth of knowledge of 
natural resource issues, and pragmatic and balanced approach to 
decision-making, will greatly aid Department of the Interior policy 
formulation.
    For all of these reasons, we urge you to endorse the nomination of 
H. Craig Manson, as Assistant Secretary of the Interior, and support 
his timely confirmation by the full U.S. Senate.
            Sincerely,
                                   Angelo K. Tsakopoulos.
                                   Eleni Tsakopoulos-Kounalakis.
                                 ______
                                 
                                                September 12, 2001.

Senator Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, 
        Dirksen Senate Office Bldg., Washington, DC.

Re: Confirmation of Judge H. Craig Manson

    Dear Senator Bingaman: This letter is sent to support the 
confirmation of Judge Craig Manson for Assistant Secretary of the 
Interior for Fish, Wildlife and Parks. We are attorneys who worked for 
Judge Manson for all or part of the four years he was the General 
Counsel for the California Department of Fish and Game (DFG). We 
commend him without reservation for this important office.
    Judge Manson is a skilled and sensitive policy maker with a proven 
ability to balance the competing interests of environmental protection 
and development, commercial and recreational uses, and government 
regulation and individual rights. Judge Manson respected all of these 
interests and made sure that each had a voice in DFG's deliberations on 
important public policy matters. In his years at DFG, Judge Manson also 
showed an impressive command of state and federal environmental laws 
and gained a wealth of experience in their application.
    Judge Manson has great integrity. Professionally and personally, he 
maintained the highest standard of honesty and professionalism during 
his tenure at DFG. And he held us to the same standard. Even when 
confronted with the volatile conflicts that often seem to pervade the 
stewardship of natural resources, Judge Manson maintained, and insisted 
that we maintain, a high level of professional courtesy and integrity. 
We believe that virtually all of those who dealt with Judge Manson 
would say he treated them with courtesy and respect even in the course 
of vigorous debate.
    Finally, we believe Judge Manson's long record of public service 
shows a deep and unwavering commitment to education, good government, 
and legal services to the poor. Despite long and demanding days at DFG, 
he made time to teach evening courses at the University of the Pacific 
McGeorge School of Law. While in private practice and at DFG, he 
donated his time to a number of worthy causes. Much to his credit, 
Judge Manson also encouraged attorneys in his office to contribute 
their own time to legal services programs. ``Service pro bono publico 
is a venerable tradition of our profession,'' he wrote in a 1996 
memorandum on the subject.
    For these reasons, we urge you to confirm Judge Manson as Assistant 
Secretary of the Interior. Judge Manson would be a tremendous addition 
to the Department of the Interior. He would bring insight and reason to 
the office. He would treat with respect everyone who walks through his 
office door and would apply the laws he is asked to administer fairly. 
We welcome the chance to work with him again on natural resource issues 
concerning California and the nation.

                    Ann S. Malcolm, J. Christopher Beale, Stephen E. 
                            Adams, Nancee Murray, Jennifer Decker, 
                            Joseph P. Milton.
                                 ______
                                 
          Public Employees for Environmental Responsibility
                                Washington, DC, September 19, 2001.

Hon. Jeff Bingaman,
Committe on Energy and Natural Resources, Hart Senate Office Building, 
        Washington, DC.
    Dear Senator Bingaman: Public Employees for Environmental 
Responsibility (PEER) opposes the nomination of H. Craig Manson for the 
position of Assistant Secretary of the Interior for Fish, Wildlife & 
Parks. PEER is a service organization representing thousands of federal 
and state employees within land management and wildlife protection 
agencies, including the U.S. Fish & Wildlife Service and the National 
Park Service--agencies that Mr. Manson would oversee if confirmed.
    As Assistant Secretary of the Interior for Fish, Wildlife & Parks, 
Mr. Manson would be the key decision-maker on an array of natural 
resource decisions ranging from how to implement the Endangered Species 
Act to the direction of our National Wildlife Refuge System. The 
position also oversees more than 30,000 permanent employees and 
thousands more seasonal and volunteer employees.
    Despite the importance of this position, Mr. Manson has spent very 
little of his career involved in natural resource or land management 
issues. The principal relevant qualification for this position is the 
approximately six years in which he served as Chief Counsel to the 
California Department of Fish & Game (DFG).
    For that reason, more than passing scrutiny of what happened at DFG 
during his tenure is appropriate. From accounts collected from scores 
of current and former DFG employees who have served in that agency with 
Mr. Manson, a disturbing pattern emerges. According to these current 
and former colleagues, Mr. Manson's principal role within the agency 
was to aid politically-connected developers and other permitees, to 
frustrate strict enforcement of resource protection laws and to work, 
usually behind the scenes, to weaken interpretations of key statutes 
and policies.
    One case epitomizes Mr. Manson's tenure at DFG--that of a 
whistleblower named Jerry Mensch. Mr. Mensch, a supervising biologist 
in the DFG Regional Office responsible for the Sacramento River Delta, 
received a direct order from the DFG Deputy Regional Director, Jim 
Messersmith, to sign a permit for a Caltrans (state transportation 
department) project involving construction on a delta island of a pier 
with creosote-coated pilings. Despite Mr. Mensch's protest that the 
permit violated specific prohibitions against putting creosote or other 
coal tar products into state waters--prohibitions contained in both the 
state Health & Safety and Fish & Game Codes--Mr. Messersmith insisted, 
intimating that the order emanated from above his level (on the second 
tier of hierarchy under the DFG Director). Mr. Mensch signed the 
illegal permit but then filed a criminal complaint with the Solano 
County District Attorney who in turn filed criminal charges against Mr. 
Messersmith. Mr. Messersmith pled no contest to two misdemeanors and 
promptly retired.
    Mr. Mensch was removed from his position and transferred to a newly 
created position that had no discernible duties. Mr. Mensch brought 
whistleblower complaints against DFG and top agency officials, 
including Mr. Manson. The State of California settled the case for an 
undisclosed sum and Mr. Mensch still works at DFG.
    As Chief Counsel for DFG, Mr. Manson--

  <bullet> Was involved in the use of tax dollars to hire a private law 
        firm to defend Mr. Messersmith from the criminal charges;
  <bullet> Participated in decisions to punitively remove Mr. Mensch 
        from his position;
  <bullet> Hid behind his role as Chief Counsel refusing to answer 
        questions put to him either by the State Legislature's 
        investigating committees or Mr. Mensch's attorney, repeatedly 
        invoking the attorney-client privilege to queries about actions 
        within DFG leading up to the illegal permit issuance.

    The State of California settled the civil suit brought by Mr. 
Mensch, paying him an undisclosed sum and ensuring his continued 
employment by DFG where Mr. Mensch still works.
    While this episode involving Mr. Mensch played out in a public 
arena, numerous other similar incidents did not draw attention of the 
State Legislature or end up in superior court. Nonetheless, the nature 
of DFG actions relative to enforcement of resource protection laws and 
its own employees who tried to enforce these laws was, by virtually all 
accounts, similarly dismal during Mr. Manson's time there.
    It is precisely because Mr. Manson's qualifications for the 
position of Assistant Secretary of the Interior for Fish, Wildlife & 
Parks are so thin that whatever presumption owed to him as the 
President's selection is commensurately thin. The troubling questions 
raised by his tenure at DFG argue strongly against this nomination.
            Sincerely,
                                              Jeffrey Ruch,
                                                Executive Director.
    PS. Enclosed are a short list of questions we respectfully suggest 
that you ask this nominee to answer before making a decision on his 
confirmation.
    Suggested Questions for H. Craig Manson, Nominee for Assistant 
           Secretary of Interior for Fish, Wildlife and Parks
    On March 3, 1997, ``all managers and supervisors'' within the 
California Department of Fish & Game (DFG) received a directive about 
``incompatible activities'' containing the following prohibition:
    ``Employees may not engage in any outside employment, activity or 
enterprise (including teaching, lecturing, or writing) with or without 
compensation which . . . reflects discredit upon, or causes unfavorable 
criticism of, State government or the Department.''
    A. As Chief Counsel of DFG at this time, did you review, approve or 
author this admonition? If not, why would you not be aware of such a 
directive?
    B. Do you believe that this admonition is appropriate and 
consistent with the constitutional rights of state employees?
    C. If confirmed as Assistant Secretary of the Interior for Fish, 
Wildlife & Parks, would you consider issuing a similar directive?
    D. What is your view of the proper role of employee free speech 
within a federal agency?
    News articles reflect your involvement in a DFG whistleblower case 
concerning Jerry Mensch, a supervising biologist give a direct order to 
approve an illegal permit. In addition, Mr. Mensch filed civil suit 
against a number of individuals, including you. Reportedly, that suit 
was settled out of court.
    E. What was your role in all of the circumstances leading up to the 
civil suit filed by Mr. Mensch?
    F. In his civil suit what did Mr. Mensch allege that you had done?
    G. Did you participate in the settlement discussions to resolve 
this case?
    H. What is your view today of the merits of that case?
    I. Is Mr. Mensch still employed by DFG? If so, in what position?
    Given your involvement in a whistleblower case in which it had been 
alleged that you were a party to illegal retaliation, what steps would 
you take as Assistant Secretary of the Interior for Fish, Wildlife & 
Parks to alleviate employee concerns that you might retaliate against 
them for making protected disclosures under the Whistleblower 
Protection Act?
    Near the end of your tenure at DFG in 1998, an organization called 
Public Employees for Environmental Responsibility (PEER) surveyed all 
department staff. Nearly one-third of all DFG employees returned the 
PEER questionnaires. Some salient responses included:

        11. I fear being rebuked for advocating aggressive 
        environmental enforcement.
        34% agreed with this statement; 37% disagreed and 29% declined 
        to express an opinion.
        12. In the past two years I have been directed to ignore an 
        environmental law, regulation or violation.
        20% said yes; 55% said no and 25% expressed no opinion.
        13. Some permit applicants/project sponsors receive 
        preferential treatment after first contacting the Resources 
        Agency or the Governor's Office.
        55% agreed; only 3% disagreed and 42% registered no opinion.
        14. [For law enforcement employees only] In the past two years, 
        DFG management has inappropriately intervened in a criminal 
        investigation.
        35% said yes; 40% said no with 25% saying no opinion.

    A. Were you aware of the PEER survey and its results?
    B. To your knowledge, did you, as Chief Counsel, or did DFG 
management attempt to investigate the underlying concerns raised by 
employees in this survey? If so, what was done? If not, why not?
    C. Do these survey results trouble you now?
    D. What steps would you, if confirmed as Assistant Secretary of the 
Interior for Fish, Wildlife & Parks, take to ensure that federal 
resource enforcement staff under your purview do not express similar 
concerns?
    During your tenure as Chief Counsel of DFG, please describe one 
instance in which you personally took steps to ensure a higher level of 
protection for natural resources within the State of California.
                                 ______
                                 
         State of California--The Resources Agency,
                               Department of Fish and Game,
                                Sacramento, CA, September 20, 2001.

Hon. Jeff Bingaman,
Chairman, Committee on Energy and Natural Resources, U.S. Senate, Hart 
        Senate Office Bldg., Washington, DC.
    Dear Senator Bingaman: I am writing in support of the nomination of 
Judge H. Craig Manson as Assistant Secretary of the U.S. Department of 
the Interior for Fish, Wildlife and Parks.
    Judge Manson and I have known and worked with one another for the 
past eight years. When he was serving as General Counsel of the 
California Department of Fish and Game and I was Executive Officer of 
the California State Lands Commission, we worked together on a variety 
of natural resource and public lands issues in California. Judge Manson 
proved himself a dedicated and skilled steward of public resources in 
this state, and his contributions as general counsel have lasted long 
past his tenure at the California Department of Fish and Game.
    I am confident Judge Manson will be a valuable asset at the U.S. 
Department of the Interior, and I look forward to working with him 
again on important public resource issues. I urge you to confirm Judge 
Manson as Assistant Secretary of the Interior.
            Sincerely,
                                           Robert C. Hight,
                                                          Director.
                                 ______
                                 
   International Association of Fish and Wildlife Agencies,
                                   Washington, DC, October 1, 2001.
Hon. Jeff Bingaman,
Chairman, Senate Committee on Energy and Natural Resources, Dirksen 
        Senate Office Building, Washington, DC.
Hon. Frank Murkowski,
Ranking Member, Senate Committee on Energy and Natural Resources, 
        Dirksen Senate Office Building, Washington, DC.

    Dear Chairman Bingaman and Senator Murkowski: I write to share with 
you the strong support of the Association for the nomination of Harold 
Craig Manson to be Assistant Secretary, Fish, Wildlife and Parks, U.S. 
Department of the Interior. As you know, Judge Manson was General 
Counsel for the California Department of Fish and Game, during which 
time we had the opportunity to work with Craig on many issues of vital 
interest to the State Fish and Wildlife agencies collectively. Judge 
Manson has extensive knowledge of and experience with fish and wildlife 
conservation issues, in particular as they relate to the states' 
authorities and responsibilities and with respect to the relationship 
between the states and the federal government.
    Judge Manson has demonstrated his commitment to both our natural 
resources and our citizens through his years of public service in 
California. He is a thoughtful, creative and deliberate professional 
who seeks to solve problems in ways that advance both conservation and 
the needs of our citizens and he has the respect of his colleagues in 
this field of endeavor. Judge Manson has the Association's strong and 
enthusiastic support.
    This Nation, our natural resources, and our citizens would be well 
served by having Judge Manson as Assistant Secretary of Fish, Wildlife 
and Parks and the Association urges expeditious Committee action 
reporting his nomination to the floor for consideration by the Senate.
    Thank you for your attention to this important nomination.
            Sincerely,
                                           R. Max Peterson,
                                          Executive Vice President.


</pre></body></html>
